No. 20A169
IN THE

Supreme Court of the United States

ALABAMA ASSOCIATION OF REALTORS, et al.,
APPLICANTS,
V.
U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, et al.,
RESPONDENTS.
CERTIFICATE OF SERVICE

In accordance with Sup. Ct. R. 29, I certify that a copy of the Motion For Leave
To File and Brief for American Academy of Pediatrics; American Medical Association;
Children’s Healthwatch; GLMA: Health Professionals Advancing LGBTQ Equality;
Medical Society of the District of Columbia; National Hispanic Medical Association;
National Medical Association; North Carolina Pediatric Society; Emily A. Benfer;
Kim M. Blankenship; Katherine L. Chen; Matthew Desmond; Gregg Gonsalves; Peter
Hepburn; Danya E. Keene; Kathryn M. Leifheit; Michael Z. Levy; Sabriya A. Linton;
Wendy Parmet; Craig E. Pollack; Julia Raifman; and David Vlahov as Amici Curiae
in Opposition to the Emergency Application to Vacate the Stay was electronically
filed and hand-delivered to this Court, and also served by email and first-class mail
on the following counsel:

APPLICANTS
Brett A. Shumate
Charlotte H. Taylor
JONES DAY
51 Louisiana Avenue, N.W.
Washington, D.C. 20001
(202) 879-3939
bshumate@jonesday.com
ctaylor@jonesday.com

RESPONDENTS
Elizabeth B. Prelogar
Vivek Suri
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
(202) 514-2217
supremectbriefs@usdoj.gov
vivek.suri@usdoj.gov

/s/ J.L. Pottenger, Jr.
J.L. POTTENGER, JR.
Nathan Baker Clinical
Professor of Law
Counsel of Record
Jerome N. Frank Legal Services Organization
Yale Law School
127 Wall Street
New Haven, CT 06511
(203) 432-4800
j.pottenger@ylsclinics.org
June 28, 2021

